U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 21, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

NTCH v. Federal Communication, et al,
S.Ct. No. 20-410

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
23, 2020, and placed on the docket on September 29, 2020. The government’s response is due
on October 29, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 30, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0410
NTCH, INC.
FCC, ET AL.

DONALD J. EVANS
FLETCHER,HEALD & HILDRETH, PLC
1300 NORTH 17TH STREET
11TH FLOOR
ARLINGTON, VA 22209
703-812-0400
EVANS@FHHLAW.COM

